CASE NO.
IN THE SUPREME COURT OF THE UNITED STATES
October 2020 Term

DARRELL HENRY WILLIAMS
Petitioner,
v.
JOE COAKLEY, Warden, Hazelton USP
Respondent.

On Petition for a Writ of Certiorari
To the Fourth Circuit Court of Appeals
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI

Darrell Henry Williams, pro se
Reg. No. 26008-044
Springfield MCFP
P.O. 4000
Springfield, MO 65801-4000
Phone: (417) 862-7041
Fax: (417) 837-1717

USGA4 Appeal: 19-7737

Dec; 10

Filed: 04/17/2020:

Pg: 1 of 2

UNPUBLISHED

united states court Of appeals
FOR THE FOURTH CIRCUIT
No. 19-7737
DARRELL HENRY WILLIAMS,
Petitioner - Appellant,
v.

JOE COAKLEY, Warden, Hazelton USP,
Respondent - Appellee.

'1.1/ c!*1'5 n,iSaiC! C0Urt fortkc Non),err. District of Wes; Virginia, at

Wheeling. FredenckP. Stamp, Jr, Senior District Judge ; (5:18-CV-00046-FPS)
Slibmitted: April 14, 2020

Decided: April 17,2020

Before WILKINSON, QUATTLEBAUM, and RUSHING, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Darrell Henry Williams, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

!

I:
r

1
!

USCA4 Appeal: 19-7737

Doc: 10

Filed: 04/17/2020

Pg:2of2

PER CURIAM:
Darrell Henry Williams, a federal prisoner, appeals the district court’s order
.

accepting the recommendation of die magistrate judge and dismissing Williams’ 28 U. S.C.
§ 2241 (2018) petition in which he sought to challenge his sentence by way of the savings
clause in 28 U.S.C. §2255 (2018). Pursuant to § 2255(e), a prisoner may challenge his
sentence m a traditional writ of habeas corpus pursuant to § 2241 if a § 2255 motion would
be inadequate or ineffective to test the legality of his detention.
[Section} 2255 is inadequate and ineffective to test the legality of a sentence
When: (1) attheUme of sentencing, settled law of this circuit or the Supreme
ourt established die legality of the sentence; (2) subsequent to the prisoner’s
direct appeal and first § 2255 motion, the aforementioned settled substantive
gW changed and Was deemed to apply retroactively on collateral review
0^) die prisoner is unable to meet the gatekeeping provisions of § 2255(h)(2)
for second or successive motions; and (4) due to this retroactive change, the
sentence now presents an error sufficiently grave to be deemed a fundamental
defect.
UnitedSmtes v. Wheeler, 886 F.3d415, 429 (4th Cir. 2018).
We have reviewed the record and find no reversible error. Accordingly, although
we grant leave to proceed in forma pauperis, we affirm for the reasons stated by the district
court. Williams v. Coakley, No. 5:18-cv-00046-FPS (N.D.W. Va. Oct 29, 2019)
I. We
dispense With oral argument because the facts and legal contentions are adequately

presented in the materials before this court and argument would not aid the decisional
process.
AFFIRMED

2

2

?

f
!
I.
i

Case 5:18-cv-00046-FPS Document 28 Filed 10/29/19- Page 1 of 6 PagelD #: 115

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF WEST VIRGINIA
DARRELL HENRY WILLIAMS,
Petitioner,
Vv

Civil Action No. 5:18CV46
(STAMP)

JOE COAKLEY, Warden,
Respondent.

MEMORANDUM OPINION AND ORDER
AFFIRMING AND ADOBTING REPORT AND
RECOMMENDATION OF MAGISTRATE JUDGE.
OVERRULING BRTiftitiwIiR' S OBJECTIONS .
DENYING AS MOOT PETITIONER* S RKnmgRH’
FOR TIMELY SPRRny WTgsnT.n’rTOM awn
DISMISSING CIVIL ACTION WITHOUT PRte.TrmTrB
I•
The pro se1 petitioner,

Background
Darrell Henry Williams,

a federal

inmate designated to USP Hazelton in Bruceton Mills, West Virginia,
filed a petition for habeas corpus under 28 U.S.C. § 2241.
No. 1.

ECF

In the petition, the petitioner challenges the validity of

Lis: sentence from the United States District Court for the Eastern
District of Missouri.

ECF No. 1 at 2.

The petitioner asserts that

when applying 28 U.S.C. §§ 2255(h)(2) and 2244(b)(2)(A), the Eighth
Circuit renders § 2255 an inadequate and ineffective remedy by
which to test the legality of his conviction and sentence and
amounts to a suspension of the writ of habeas corpus in violation

• £rp se describes a person who represents himself in a court
proceeding without the assistance of a lawyer. Black's Law
Dictionary 1416 (10th ed. 2014).

j

1.
j

3

Case 5:18-cv-00046-FFS Document 28 Filed 10/29/19 Page 2 of 6 PagejD #: 116

of Article. I,

Section

IX of

the' Constitution which prohibits

suspension of the Writ of habeas corpus."

Id^ at 11.

Moreover,

the petitioner states that the sentencing judge ''applied the then
mandatory career offender guideline,. Which, increased the mandatory
range," relying "on either the assault second conviction and/or the
attempted escape conviction
at 5,

{without, identifying which) ."

id,.

The petitioner states that:

The 'residual clause definition' by which [his] Missouri
state convictions for attempted escape and assault in
second degree were qualified as Guidelines 'crimes of
violence' was unconstitutionally vague for the identical
reasons the residual clause in [the Armed Career Criminal
Act) ACCA was struck down in 2015.
Because the
'mandatory Guidelines' in effect at the time of [his]
2001 sentence were mandatory and fixed the penalty range
the district could apply to punish [him], the same due
process rule that invalidated the ACCA residual clause
applies to the mandatory Sentencing Guidelines residual
definition in U.S.S.G. § 4B1.2(a) (2). In the context of
mandatory Sentencing Guidelines sentencing, the Johnsondecision constitutes a retroactive 'substantive decision'
that 'prohibits a. certain category of punishment for a
class of defendants because of their status or offenses.
Id.

at

6.

Specifically,

the petitioner contends

that

" (t]he

'element of force' category for 'crimes of violence under U.S.S.G.
S 4B1.2 (a) (1)

is identical to the

'element of force'

clause of

&CCA, and courts uniformly interpret them interchangeably."
According

to

the petitioner,

"[b]oth definitions

include

crimes that require as an element the use of vehement,

2

4

only

furious,

'violent force' capable of causing physical pain to another."

:Johnson v. United States. 135 S. Ct. 2251 {2015).

Id..

Id.

Case 5:.18-cv-00046-FPS Document 28 Filed 10/29/19 Page 3 of 6 PagelD #: 117

The petitioner contends that his Missouri second degree assault
conviction "employed indivisible elements encompassing both violent
and nonviolent force by attempting to- cause or causing serious
physical injury .. , . nonviolent forms of injury another which the
Fourth

Circuit

qualify."

Id..

Court

of

appeals

established

in

2012

do

not

The petitioner asserts a similar argument with

respect to his conviction for escape or attempted escape from
confinement, asserting that the statute "indivisibly encompasses
escapes from both non-secure and secure facilities."
relief,

the petitioner requests

that this Court

judgment and commitment and resentence
offender sentencing enhancement."

[him]

Id.

For

" [vjacate the

without the career

IcL at 9.

The petitioner also filed a motion titled as "Request for
Timely Speedy Resolution."

ECF No. 23.

United States Magistrate- Judge James P. Mazzone entered a
report and recommendation (ECF No. 25) and the petitioner timely
filed objections (ECF No. 16).

In his objections, the petitioner

states' that "Missouri's second degree assault statute as it existed
at

the

time

of

petitioner's

offense

indivisibly

incorporated

'reckless' conduct as well as intentional conduct with a firearm."
Id. at 1.

The petitioner asserts that reckless conduct "does not

qualify as 'the use of force' within the meaning of both the career
offender

'elements'

definition and

'elements' clause of the [ACCA] ."

3

5

the identically interpreted

Idat 2.

The petitioner then

Case 5:18-cv-00046-FPS Document 28 Filed 10/29/19 Page 4 of 6 PagelD #: 118

proceeds

to

assert

that

the

magistrate

judge's

report

and

recommendation overlooked various issues, such as ''the separation
of powers guarantee at the heart of habeas corpus proceedings."
Id. at 3-6.

The petitioner also states that there is a circuit

split with respect to whether Johnson applies retroactively.

Id.

at 6.
Foi the reasons that follow, this Court finds that the report
and recommendation of the magistrate judge should be affirmed and
adopted in its entirety.
III.

Applicab1e Law

Under 28 U.S.C. § 636(b)(1)(C), this Court must conduct a de
novo review of any portion of the magistrate judge's recommendation
to which an objection is timely made.

Because the petitioner filed

objections to the report and recommendation, the magistrate judge's
recommendation will be reviewed de. novo as to those findings to
which the petitioner objected.
IV.

Discussion

This Court has conducted a de novo review of all portions of
the magistrate judge's report and recommendation.

In this case,

for substantially the reasons stated by the magistrate judge, this
Gourt finds that this Court lacks subject matter jurisdiction.

As

the magistrate judge correctly stated, the petitioner's predicate
offenses for purposes cf the career offender enhancement were his
prior

convictions

for

second degree

assault

and

first

degree

4

6

■:

|

Case 5:18-cv-00046-FPS Document 28 Filed 10/29719 Page 5 of 6 PagelD#:119

robbery under Missouri law.

S§e EC.F NO. 25 at 8-9... The magistrate

judge correctly, found, that the elements clause of the definition of
a crime of violence is satisfied with. respect to both of the
petitioner's prior convictions for second degree assault and first
degree robbery and. the residual clause that mirrors that of the
ACCA is inapplicable.

Id. at 8-9.

Therefore, the magistrate judge

properly concluded that the petitioner has not satisfied the
savings, clause under 28 U.S.C. § 22.5.5(e) and is not entitled to
$ 2241 relief through § 2255 (e) .

id.. at 10.

Accordingly, this

Court upholds the magistrate judge's recommendation and overrules
the petitioner's objections.
V.

Conclusion

For the reasons discussed above, the report and recommendation
of the magistrate judge (EOF No. 25) is hereby AFFIRMED and ADOPTED
id its entirety.

The petitioner's petition for writ of habeas

corpus under 28 U.S.C. § 2241 (ECF No. 1) Is DENIED and DISMISSED
WITHOUT PREJUDICE, the petitioner's objections {ECF No. 27) are
OVERRULED, and the petitioner's "Request for Timely Speedy
Resolution" (ECF No. 23) is DENIED AS MOOT.
It is further ORDERED that this case be DISMISSED and STRICKEN
from the active docket of this Court..
1

Should the petitioner choose to appeal the judgment of this

1
t

Court to the United States Court of Appeals for the Fourth Circuit

l

on th® issues to which objection was made, he is ADVISED that he

!
!

5
!

i

f

I

7
»

Case 5:18-cv-00046-FP$ Document 28 Filed 10/29/19 Page 6 of 6 Paget D #: 120

must file a notice o:f appeal with the Clerk of this Court within 60
days, after the date of the entry of this order.
IT IS SO ORDERED.
The Clerk is DIRECTED to transmit a copy of this memorandum
Opinion- and order to counsel of record herein and to the pro, se
petitioner by certified mail.
Procedure 58,

Pursuant, to Federal Rule of Civil,

the Clerk is DIRECTED to. enter judgment on this

raatter.
DATED:

October 29, 2019

/s7 Frederick -P,. Stamp. Jr
FREDERICK P. STAMP, JR.
UNITED STATES DISTRICT JUDGE

|

1
Ii

s

6

!
f

fi
8
\

Case 5:18-cV-00G46-FPS Document 25 Filed 10/10/19 Page 1 of 11 PagelD #: 94

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF WEST VIRGINIA
WHEELING

DARRELL HENRY WILLIAMS,
Petitioner,
Civil No.: 5:18CV46
(JUDGE STAMP)

v.
JOE COAKLEY, Warden,
Respondent.

REPORT AND RECOMMENDATION
I.

INTRODUCTION

On March 26, 2018, the pro se Petitioner filed an Application for Habeas Corpus
Pursuant to 28 U.S.C. § 2241. At the time, Petitioner was a federal inmate housed at
USP Hazelton and is challenging the validity of his sentence imposed in the United
States District Court for the Eastern District of Missouri. This matter is pending before
the undersigned for an initial review and Report and Recommendation pursuant to LR
PL P.2 and 28 U.S.C. § 1915A.
IL

FACTUAL AND PROCEDURAL HISTORY1

Petitioner was charged wjth conspiracy to distribute in excess of 500 grams of
1 The undersigned reviewed Petitioner's criminal docket from the Middle District of Tennessee in
preparing this section. See 3:04-cr-129 (MDTN) available on PACER. In addition, the
undereigned was provided a copy of Petitioner's Pre-Sentence Report by the Probation Office
in that district. Philips v. Pitt Cntv. Mem. Hoso.. 572 F. 3d 176 180 (4th Cir. 2009} (courts “may
properly take judicial notice of public record); Colonial Penn. Ins. Co. v. Coil 887 F.2d 1236,
21239 (4tb Cir. 1989) (“We note that 'the most frequent use of judicial notice is iri noticing the
contents of court records ’”).

1

9

Case 5:18-cv-00046-FPS Document .25 Filed 10/10/19 Page 2 of 11 Page ID #: 95

cocaine, in violation of Title 21, United States Code, Section 841(a)(1), and knowingly
escaping from a facility to which he was lawfully committed, in violation of Title 18,
United States Code, Section 751(a). On December 1, 2000, a jury found Petitioner
guilty on both counts of the indictment. On March 2, 2001, Petitioner was sentenced
as a career offender under Title 21, United States Code, Section 841 and United
States Sentencing Guidelines (U.S.S.G.) Section- ’481.1 to 310 months imprisonment
for conspiracy to distribute cocaine and 60 months imprisonment for escape from
custody, to be served concurrently. On appeal, his conviction and sentence were
affirmed on July 9, 2002. United States v. Williams 295 F.3d 817 (8th Cir. 2002).
On December 31, 2003, Petitioner filed a motion to vacate pursuant to
Title 28, United States Code, Section 2255. In that petition, he challenged his
sentence arguing that he was denied his constitutional right to counsel under the
Sixth Amendment due to ineffective assistance of counsel. In addition, he
alleged that the Government failed to comply with the Speedy Trial Act and the
statute under which he was sentenced, 21 U.S.C. § 841(b)(1)(B)(ii), had been
deemed unconstitutional. Finally, he alleged that the Federal Sentencing
Guidelines for career offenders, U.S.S.G. Section 4B1.1 was incorrectly applied.
On March 29, 2017, his Motion Under 28 U.S.C. § 2255 was denied. On appeal,
the Eighth Circuit declined to grant Petitioner’s application for a certificate of
appealability.
Following the decision in Johnson v. United States

135 S.Ct. 2251

(2(315), Petitioner filed an Application for Leave to File a Successive Motion to
Vacate, Set Aside or Correct Sentence pursuant to 28 U.S.C. § 2255. Petitioner

2

10

Case 5;18-ev-.(30046-FPS Document 25 Filed 10/10/19 Page 3 of 11 PagelD#:96

argued that Johnson’s holding that the residual clause of the Armed Career
Criminal Statute was unconstitutionally vague was applicable to his career
offender sentence, and he no longer qualified as a career offender because his
conviction for assault ih the second degree under Missouri law no longer
qualified as a predicate offense. The application was, stayed pending the
decision in Beckles v. United States. 137 S.Ct. 2886 (2017). Following the
decision in that case, which held that Johnson did not apply to the advisory
guidelines, Petitioner’s application to file a second or successive §2255 motion
was denied.
III.

PETITIONERS CLAIMS

In support of his petition pursuant to 28 U.S.C. § 2241, Petitioner argues at great
length that the Eighth Circuifs approach to the established gatekeeping measures
restricting the ability to bring new and repetitive claims in second or successive habeas
corpus actions is a "crap shot.” ECF No. 1 at p. 12. Petitioner goes on to argue that as
applied by the Eighth Circuit, Sections 2255(h)(2) and 2244(b)(2)(A) constitute a
suspension of the writ of habeas corpus, and he maintains he has established that the
remedy has been rendered ineffective and unavailable to provide the habeas corpus
remedy Congress intended those statutes to preserve. In addition, Petitioner argues
that Johnson is retroactively applicable to the mandatory guidelines, and because he
was sentenced under the identical residual clause found in the career offender
guidelines, his sentence is no longer valid. For relief, he asks this court to vacate his
judgment and resentence him with the career offender sentencing enhancement.
IV.

LEGAL STANDARDS

3

11

Case 5;18-cv-00046-FPS Document 25 Filed 10/10/19 Page 4 of 11 PagelD #: 97

A. Reviews of Petitions for Relief
Pursuant to the provisions of 28 U.S.C. § 636(b)(1)(B) and the Court’s Local
Rules of Prisoner litigation Procedure, this Court is authorized to review such petitions
for relief and submit findings and recommendations to the District Court. This Court is
charged with screening Petitioner’s case to determine if “it plainly appears from the
petition and any attached exhibits that the petitioner is not entitled to relief in the district
court." Rule 4, Rules Governing Section 2254 Cases in the U.S. District Courts; see
also Rule 1(b) Rules Governing Section 2254 Cases in the U.S. District Courts (a
district court may apply these rules to a habeas corpus petition not filed pursuant to
§ 2254).
B. Pro Se Litigants
As a pro se litigant, Petitioner’s pleadings are accorded liberal construction and
held to “to less stringent standards than formal pleadings drafted by lawyers.” Haines v.
Kerner, 404 U.S. 519, 520 (1972). However, even under this less stringent standard,
the petition in this case is subject to summary dismissal. The requirements of liberal
construction do not mean that the Court can ignore a clear failure to allege facts which
set forth a claim cognizable in a federal district court. See Weller V. Deo't of Social
Servs., 901 F.2d 387 (4th Cir. 1990). As discussed more fully below, Petitioner is not
entitled to relief under 28 U.S.C. 2241, and this matter is due to be dismissed.
C. Post-Conviction Remedies and Relief
Despite the title he affixes to his petition, Petitioner unequivocally challenges the
validity of his sentence and not the execution of his sentence, as such his filing is not a
habeas petition under 28 U.S.C. § 2241; but rather, it is a Motion to Vacate, Set Aside,

4
12

Gtase 5;18-cv-00046-FPS Document 25 Filed 10/10/19 Page 5 of II Page IP #: 98

or Correct a Sentence by a Person in Federal Custody pursuant to 2$ U.S.C. § 2255.
The law is well settled that § 2255 is the exclusive remedy for challenging the validity of
a federal judgment and sentence. See In re Vial. 115 F.3d 1192, 1193 (4th Cir. 1997). A
petition for a writ of habeas corpus under § 2241 is not an additional, alternative or
supplemental remedy to that prescribed under § 2255
However, § 2255(e) provides a “savings clause” exception which serves as a
means for petitioners to apply for a traditional writ of habeas pursuant to § 2241. It
)

states:
An application for a writ of habeas corpus on behalf of a prisoner who is
authorized to apply for relief by motion pursuant to this section, shall not
be entertained if it appears that the applicant has failed to apply for relief,
by motion, to the court which sentenced him, or that such court has
denied him relief, unless it also appears that the remedy by motion is
inadequate or ineffective to test the legality of his detention.
28 U.S.C. § 2255(3) (emphasis added). The savings clause will occasionally allow a §
2241 petition to take the place of a § 2255 motion, but not “merely ... because an
individual is procedurally barred from filing a Section 2255 motion,” Via], 115 F.3d at
1194 n.5, nor simply because relief Is unavailable due to the gatekeeping provisions of
§ 2255. Young v. Conley. 128 Fed Supp.2d 354, 357 (S.D.W. Va. 2001). Instead, to
trigger the savings clause in the context of a challenge to the validity of a conviction, the
Petitioner’s claim must contain all three of the following characteristics: (1)at the time of
his conviction, the settled law of this circuit or the Supreme Court established the
legality of his conviction; (2) subsequent to his direct appeal and first 2255 motion, the
substantive law changed such that the conduct of which he was convicted is now
deemed not to be criminal; and (3) he cannot satisfy the gatekeeping provisions of 2255

5

13

Case 5:18-cv-00046-FPS Document 25 Filed 10/10/19 Page 6 of 11 Page I D #: 99

because the new rule is not one of constitutional law. In re Jones. 226 F.3<f at 328, 33334 (4th Cir. 2000). With respect to challenges involving the validity of a sentence, the
savings clause is available only when the petitioner can establish that: (T) at the time of
sentencing, settled law of this circuit or the Supreme Court established the legality of
the sentence; (2) subsequent to his direct appeal and first 2255 motion, the
aforementioned settled substantive law changed and was; deemed to apply retroactively
on collateral review; (3) he cannot satisfy the gatekeeping provisions of 2255 (h)(2) for
second or successive motions; and (4) due to this retroactive change, the sentence now
presents an error sufficiently grave to be deemed a fundamental defect. United States v.
Wheeler, 886 F.3rd 415, 429 (4th Cir. 2018). The Fourth Circuit specified that a change
of substantive law within the circuit, not solely in the Supreme Court, would be enough
to satisfy the second prong of the four-part test established in Wheeler, jd In addition,
the Fourth Circuit held that the savings clause requirements are jurisdictional rather
than procedural; therefore, if they are not met, the Court does not have jurisdiction to
entertain the § 2241 petition. Id. at 426. The petitioner bears the burden of establishing
that a § 2255 motion is inadequate or ineffective and that he satisfies the savings clause
requirements. See Hood v. United States. 13 Fed Appx. 72,2001 WL 648636, at*1 (4th
Cir. 2001); McGee v. Hanberrv. 604 F.2d 9, 1,t (5th Cir. 1979); Haves v, Zieoler. No.
5:11-cv-00261, 2014 WL 670850 (S.D.W. Va. February 20, 2014), affd. 573 Fed.Aopx.
268 (4th Cir. 2014).
V.

ANALYSIS

As noted, Petitioner was convicted of conspiracy to distribute in excess of 500
grams of cocaine in violation of 21 U.S.C. § 841(a)(1) and knowingly escaping from a

6

14

Case 5:T8-cv-Q0046-FPS Document 25 Filed 10/10/19 Page 7 of 11 PagelD #: 100

facility to which he was lawfully committed, in violation of 18 U.S.C. § 751(a). The
sentencing court found Petitioner to he a career offender under the pre-Booker.* thenmandatory Guidelines ahd sentenced him to 310 months. Pursuant to the: Guidelines, a
defendant can be designated a career offender if:
iiJThe defendant was at least eighteen years old at the time the
defendant committed the instant offense of conviction; (2) the instant
offense of conviction is a felony that is either a crime of violence or a
controlled substance offense; and (3) the defendant has at least two prior
ftjony convictions of either a crime of violence or a controlled substance
offense.
U.S.S.G. § 4B1fi(a). Petitioner’s PSR identified two convictions that

purportedly

counted as prior felony convictions of a crime of violence: (1) Petitioner’s conviction for
Missouri assault second degree and (2) robbery first degree.
Petitioner maintains that his career offender classification was based on either
"the assault second conviction and/or the attempted escape conviction without
identifying which).” EOF No. 1 at 5. Petitioner further argues that his Missouri second
degree assault for causing physical injury, indivisjbly encompassed non-violent conduct,
and attempted escape from confinement indivisibly encompasses escapes from both
non-Secure and secure facilities, Id at 6. Petitioner does not address his Robbery First
Degree conviction.
The second prong of the Wheeler test requires a showing that (1) the settled
substantive law, which established the legality of the defendant’s sentence,

has

f

changed and (2) that change in the law has been deemed to apply retroactively on

l

2 United States V. Booker. 543 U.S. 220 (2005).
7

15

■I

I

Case 5:l8-cv-00046-FPS Document 25 Filed 10/10/19 Page 8 of 11 PagelD #: 101

collateral review.3 Although Petitioner alleges that his convictions for second degree
assault and attempted escape fall under the
provision of the sentencing guidelines, and

residual clause of the career offender
are not crimes of violence, he cites

absolutely no case law to support his allegations, let alone

case law that has been held

retroactive to cases on collateral review;4 Furthermore, Petitioner’s predicate offenses
for purposes Of the career offender enhancement were his

prior convictions for Missouri

AssauK Second Degree and Robbery First Degree, each

of which falls within the

elements clause of the definition of a crime of violence and not within the residual
Clause that mirrors that of the ACCA.
Under Missouri Statute, Robbery in the First Degree is defined as follows:

(1) Causes serious physical injury to any person; or
(2) Is armed with a deadly weapon; or
<3> SSnTwteatenS ,he iB1m6di3fe

°f 3 dangerous instrument against

any

'"'SSinSn! ** USe 0f "na! ■""" * * 3 deadly weapon o,
MO, Rev. Stat. § 569,020.1. A person “forcibly steals” when he “h
uses or threatens the
immediate use of physical force
upon the person of another,.,” MO. Rev. Stat.
569.010(1). Bevly v. United States, No. 4:16CV00965 ERW, 2016 WL 6893815,

at *2

(E D. Mo. Nov. 3, 2010).
f
conviction. See

!

8

f
16

1

Case 5:18-cv-00046~FPS Document 25 Filed 10/10/19 Page 9 of 11 PagelD #; 102

Court records reflect that Petitioner’s offense under this statute occurred on
February 20, 1988 when he struck the female victim in the head with a .45 caliber
revolver and stole two rings and a purse from her. Accordingly, Petitioner's conviction
for Robbery in the First Degree, fits squarely in the elements clause of the career
offender guidelines. See §4B1.2(1 )(1).
With respect to Petitioners conviction for second-degree assault, Mo. Rev. Stat.
§ 596.060 reads in relevant part:
1

A person commits the crime of assault in the second degree if he;
<2)

Petitioner pleaded guilty to two counts of Assault Second Degree In the Circuit
Court of St. Louis, Missouri. According to the presentence report prepared by the
Missouri Board of Probation and Parole, the offense occurred on March 13,1982, when
officers of the St. Louis Police Department on routine parole observed a vehicle with two
occupants who matched the description of wanted suspects. Attempts by the officers to
curb the vehicle were unsuccessful, and a high-speed chase ensued.

After one of the

vehicle’s tires blew out, the driver, later identified as Petitioner, exited his vehicle and
fired two shots from a ,25 caliber automatic handgun at foe officers, who had exited
their patrol car.

r

The Eighth Circuit has held that second-degree assault under § 565.060.1(2) is a
crime thal has an element the use, attempted use, or threatened use of physical force
against the person of another" and therefore constitutes a violent felony. United States
Vj^gn. d3i F.3d 476,485 (8th Cir, 2011).
j:
S

9
i
17

I

Case 5;18-cy~0b046- FPS Document 25 Filed 10/10/19 Page 10 of 11 PageiD #; 103

Therefore, Petitioner has not satisfied the § 2255(e) savings Ola use, he is
not
entitled to § 2241 relief through § 2255(e), and this Court is without subject-matter
jurisdiction.

When subject-matter jurisdiction does not

exist, “the only function

remaining to the court is that of announcing the fact and dismissing the cause/
Co. v. Citizens for a Better Fnv’t 528 u.S. 83

Steel

118 S.Ct. 1003, 1012-16 (1998);

Reinbold v. Evers, 137 F.3d 348, 359 n.10 (4th Cir. 1999).
V. RECOMMENDATION
Based on the foregoing, the undersigned recommends Petitioner’s writ of habeas
corpus pursuant tb § 2241 fECF No. 1] be DENIED and DISMISSED WITHOUT
PREJUDICE, It is further RECOMMENDED that the Petitioner's “Request for Timely
Speedy Resolution” [ECF No. 23] be DENIED AS MOOT,
Within fourteen

(14) days after being served with a copy of this

Recommendation, any party may file with the Clerk of the Court,

specific written

objections, identifying the portions of the Report and Recommendation to which
objection is made, and the basis of such objection. A copy of such objections
Should also be subnutted to the District Judge. Objections shall not exceed ten (10)
typewritten pages or twenty (20) handwritten pages, including exhibits, unless
accompanied by a motion for leave to exceed the page limitation, consistent with LR PL
■I

i

P 12.
Failure to file written objections as set forth above shall constitute a waiver
Of de novo review by the District Court and a waiver of appellate review by the
Circuit Court of Appeals. Snyder v. Ridenour 889 F.2d 1363 (4th Cir. 1989);

f

Thomas
i)
i

10

18

f
I

Case 5:18-cv-00046-FPS Document 25 Filed 10/10/19 Page 11 of 11 PagelD #; 104

—^rn’

us- 140 (1985); Wright v. Collins. 766 F.2d 841 (4th Cir. 1985):

United

States v. Schronce 727 F.2d 91 (4th Cir. 1984).
This Report and Recommendation completes the referral from the district

court.

The Clerk is directed to terminate the Magistrate judge’s association with this case.
The Clerk of the Court is directed to mail

a copy of this Report and

Recommendation to the pro se Petitioner by certified mail, return receipt requested, to
his last known address as reflected on the docket sheet.
DATED: October 10, 2019

Z<S, fymto
JAMES P. MAZZONE
UNITED STATES MAGISTRATE JUDGE

r

I
i

i
3

11

| '
J

I
!

19

